<html>
<title> - UNDERSTANDING THE EFFECTS OF THE REPEAL OF REGULATION Q ON FINANCIAL INSTITUTIONS AND SMALL BUSINESSES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    UNDERSTANDING THE EFFECTS OF THE 
                  REPEAL OF REGULATION Q ON FINANCIAL 
                   INSTITUTIONS AND SMALL BUSINESSES 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON FINANCIAL INSTITUTIONS

                          AND CONSUMER CREDIT

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2012

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 112-104


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-076 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                   SPENCER BACHUS, Alabama, Chairman

JEB HENSARLING, Texas, Vice          BARNEY FRANK, Massachusetts, 
    Chairman                             Ranking Member
PETER T. KING, New York              MAXINE WATERS, California
EDWARD R. ROYCE, California          CAROLYN B. MALONEY, New York
FRANK D. LUCAS, Oklahoma             LUIS V. GUTIERREZ, Illinois
RON PAUL, Texas                      NYDIA M. VELAZQUEZ, New York
DONALD A. MANZULLO, Illinois         MELVIN L. WATT, North Carolina
WALTER B. JONES, North Carolina      GARY L. ACKERMAN, New York
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
GARY G. MILLER, California           GREGORY W. MEEKS, New York
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
SCOTT GARRETT, New Jersey            RUBEN HINOJOSA, Texas
RANDY NEUGEBAUER, Texas              WM. LACY CLAY, Missouri
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
JOHN CAMPBELL, California            JOE BACA, California
MICHELE BACHMANN, Minnesota          STEPHEN F. LYNCH, Massachusetts
THADDEUS G. McCOTTER, Michigan       BRAD MILLER, North Carolina
KEVIN McCARTHY, California           DAVID SCOTT, Georgia
STEVAN PEARCE, New Mexico            AL GREEN, Texas
BILL POSEY, Florida                  EMANUEL CLEAVER, Missouri
MICHAEL G. FITZPATRICK,              GWEN MOORE, Wisconsin
    Pennsylvania                     KEITH ELLISON, Minnesota
LYNN A. WESTMORELAND, Georgia        ED PERLMUTTER, Colorado
BLAINE LUETKEMEYER, Missouri         JOE DONNELLY, Indiana
BILL HUIZENGA, Michigan              ANDRE CARSON, Indiana
SEAN P. DUFFY, Wisconsin             JAMES A. HIMES, Connecticut
NAN A. S. HAYWORTH, New York         GARY C. PETERS, Michigan
JAMES B. RENACCI, Ohio               JOHN C. CARNEY, Jr., Delaware
ROBERT HURT, Virginia
ROBERT J. DOLD, Illinois
DAVID SCHWEIKERT, Arizona
MICHAEL G. GRIMM, New York
FRANCISCO ``QUICO'' CANSECO, Texas
STEVE STIVERS, Ohio
STEPHEN LEE FINCHER, Tennessee

           James H. Clinger, Staff Director and Chief Counsel
       Subcommittee on Financial Institutions and Consumer Credit

             SHELLEY MOORE CAPITO, West Virginia, Chairman

JAMES B. RENACCI, Ohio, Vice         CAROLYN B. MALONEY, New York, 
    Chairman                             Ranking Member
EDWARD R. ROYCE, California          LUIS V. GUTIERREZ, Illinois
DONALD A. MANZULLO, Illinois         MELVIN L. WATT, North Carolina
WALTER B. JONES, North Carolina      GARY L. ACKERMAN, New York
JEB HENSARLING, Texas                RUBEN HINOJOSA, Texas
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
THADDEUS G. McCOTTER, Michigan       JOE BACA, California
KEVIN McCARTHY, California           BRAD MILLER, North Carolina
STEVAN PEARCE, New Mexico            DAVID SCOTT, Georgia
LYNN A. WESTMORELAND, Georgia        NYDIA M. VELAZQUEZ, New York
BLAINE LUETKEMEYER, Missouri         GREGORY W. MEEKS, New York
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             JOHN C. CARNEY, Jr., Delaware
FRANCISCO ``QUICO'' CANSECO, Texas
MICHAEL G. GRIMM, New York
STEPHEN LEE FINCHER, Tennessee



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    March 1, 2012................................................     1
Appendix:
    March 1, 2012................................................    21

                               WITNESSES
                        Thursday, March 1, 2012

McCauley, Cliff, Senior Executive Vice President, Frost Bank, on 
  behalf of the Independent Bankers Association of Texas.........     3
Pollock, Alex J., Resident Fellow, American Enterprise Institute.     5

                                APPENDIX

Prepared statements:
    Maloney, Hon. Carolyn:.......................................    22
    McCauley, Cliff..............................................    24
    Pollock, Alex J..............................................    29

              Additional Material Submitted for the Record

Maloney, Hon. Carolyn:
    Written statement of John Durrant, Managing Vice President, 
      Small Business Banking, Capital One Financial Corporation..    33
Renacci, Hon. James:
    ``The Hamilton Financial Index: A semi-annual report on the 
      state of our financial services industry,'' dated February 
      2012.......................................................    35
    Written statement of the Independent Community Bankers of 
      America....................................................    86


                    UNDERSTANDING THE EFFECTS OF THE
                  REPEAL OF REGULATION Q ON FINANCIAL
                   INSTITUTIONS AND SMALL BUSINESSES

                              ----------                              


                        Thursday, March 1, 2012

             U.S. House of Representatives,
             Subcommittee on Financial Institutions
                               and Consumer Credit,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 9:34 a.m., in 
room 2128, Rayburn House Office Building, Hon. Shelley Moore 
Capito [chairwoman of the subcommittee] presiding.
    Members present: Representatives Capito, Renacci, 
Luetkemeyer, Canseco; Maloney, Hinojosa, and Scott.
    Also present: Representative Green.
    Chairwoman Capito. We will go ahead and get started. Mrs. 
Maloney is busy elsewhere, but she said to go ahead and get 
started.
    Would the witnesses to take their seats?
    I want to thank everybody for coming today, and the hearing 
will come to order. We are scheduled to have a vote between 
10:15 and 10:30, so we will see what happens.
    I am going to give my opening statement.
    In the wake of the stock market crash and the financial 
crisis leading up to the Great Depression, many steps were 
taken to enhance regulation of the financial sector. One such 
item was the Federal Reserve prohibition on banks paying 
interest on demand deposit accounts, commonly referred to as 
Regulation Q or Reg Q.
    In the years leading up to the crash, there was an 
increasing trend of financial institutions competing with each 
other by offering higher interest rates on demand deposit 
accounts.
    In 1933, Federal regulators responded by promulgating Reg 
Q, which prohibited the payment of interest on demand deposits. 
That is a little history lesson there for me and for you.
    Since then, banks have utilized tactics to avoid the 
effects of Reg Q. In some cases, banks effectively paid 
interest to businesses by offering them sweep arrangements in 
which business deposits were transferred from business checking 
accounts, invested into commercial paper or repurchase 
agreements or mutual funds at the end of each day, and then 
transferred back the next day.
    The Dodd-Frank Act included the repeal of Section 19(i) of 
the Federal Reserve Act in its entirety, thereby striking the 
statutory authority under which the Federal Reserve issued Reg 
Q. Since July 21, 2001, banks have been able to pay interest on 
business checking accounts on a voluntary basis.
    The repeal of Reg Q has been debated in the House of 
Representatives over the last decade. In fact, the House voted 
almost unanimously several times to move legislation that would 
have included a repeal of Reg Q.
    That said, we are in a much different environment coming 
out of the financial crisis, and our witnesses will provide 
important insight into the effect the repeal of Reg Q is having 
on financial institutions and small businesses.
    Since Mrs. Maloney is not here for the purpose of giving an 
opening statement, I would like to recognize Mr. Canseco for 2 
minutes.
    Mr. Canseco. Thank you, Madam Chairwoman. And I thank you 
and welcome our witnesses here today.
    Mr. McCauley, it is always good to have someone from San 
Antonio here as a witness. So thank you for being here today on 
this panel.
    And thank you, Mr. Pollock, for coming.
    Today, we examine the impact of banks now being allowed to 
pay interest on demand deposit accounts, the last vestige of a 
law that Congress passed during the Great Depression.
    While the repeal of this last vestige of Reg Q has, by and 
large, been supported by industry participants for years, there 
is now concern amongst a number of community banks that Reg Q's 
repeal could leave them at a further disadvantage versus their 
larger counterparts.
    I believe it is important today to hear the merits of both 
sides of this argument. While we, as Congress, should take 
measures that responsibly lift the burdens off of community 
banks, we must also make sure that we foster a competitive 
marketplace that takes into account the capabilities of banks 
of every size, as well as small businesses.
    Again, I thank Mr. McCauley and Mr. Pollock for being here 
today, and I look forward to our discussion on Reg Q. I yield 
back.
    Chairwoman Capito. Thank you.
    Mr. Scott, would you like to make an opening statement or--
Mr. Renacci, do you wish to make an opening statement? No?
    Mr. Luetkemeyer? No?
    We are having a dearth of opening statements, so back to 
you again, Mr. Scott.
    Mr. Scott. Oh.
    Chairwoman Capito. I am sorry to rush you. Take your time.
    Mr. Scott. No problem. This is a very, very important 
hearing. And I certainly want to thank you, Madam Chairwoman, 
for holding this hearing to get the impact of the repeal of 
Regulation Q.
    As we know, Dodd-Frank rescinded Regulation Q, which had 
prohibited banks from paying interest on business checking 
accounts. And after its repeal, member banks and Federal 
savings associations could pay interest on demand deposit 
accounts, but they are not required to do so.
    Some supporters of Regulation Q's repeal have stated that 
small banks have been put at a competitive disadvantage due to 
their inability to cut fees in contrast with larger banks. And 
supporters for the repeal also include some small businesses 
that claim that they could not earn interest on their fee 
deposits, nor could they negotiate fee reductions.
    So repeal of Regulation Q brings with it significant 
changes to the calculation of the account analysis for banks. 
In response to the passage of Dodd-Frank and Regulation Q's 
repeal, banks have several options in choosing to respond. One 
option is paying hard interest on the entire average account 
balance and thereby eliminating the soft interest credit. 
Another option is to proceed with paying a soft earnings credit 
on that portion of the average balance required to offset 
service charges, then paying hard interest on excess balances.
    And of course, banks could opt for no change and pay no 
interest at all. I would be interested during this hearing to 
discover both the benefits and the risks of each of these 
options and what effect each of these options would have on the 
affected institutions as well as on the economy in general.
    Thank you, Madam Chairwoman. I look forward to the 
witnesses.
    Chairwoman Capito. Thank you.
    I think that will conclude our opening statements. So I 
would like to take the opportunity to introduce the panel of 
witnesses for the purpose of making a 5-minute presentation, 
and then we will begin questioning.
    First, we have Mr. Cliff McCauley, senior executive vice 
president of the Frost Bank of Texas.
    Hold on just a second here. I see Mrs. Maloney is here.
    Without objection--
    Mrs. Maloney. My apologies.
    Chairwoman Capito. No problem.
    Mrs. Maloney. I thought it was at 10:00. Like Pavlov's dog, 
whatever the usual time is, is when I show up.
    Okay. Thanks.
    Chairwoman Capito. I was just recognizing Mr. McCauley. He 
is going to make his statement. Welcome.

 STATEMENT OF CLIFF MCCAULEY, SENIOR EXECUTIVE VICE PRESIDENT, 
FROST BANK, ON BEHALF OF THE INDEPENDENT BANKERS ASSOCIATION OF 
                             TEXAS

    Mr. McCauley. Chairwoman Capito, Ranking Member Maloney, 
and members of the subcommittee, my name is Cliff McCauley. I 
am senior executive vice president of Frost Bank, headquartered 
in San Antonio, Texas.
    For the last 20 years, my primary area of responsibility 
has been leading our correspondent banking line of business. I 
appreciate the opportunity to testify on behalf of the 
community banking industry about the potentially devastating 
effects of the repeal of Regulation Q.
    In my role of working with community banks for over 30 
years, I have become very familiar with the balance sheet 
structure and business model that has developed over the 
decades as they serve their communities and customers.
    One very important part of this basic structure is the 
relationship that exists between banker and small-business 
owner. This model is built on relationship, service, close 
knowledge of the business, and credit support. This has been 
possible because of the longstanding effects of Regulation Q 
and is the foundation of the banker-business relationship.
    The demand deposit account, or DDA, is the primary 
transaction account and repository for working capital of 
virtually every small business. It has been argued that for too 
long banks have denied paying interest on DDAs and that it 
would only be fair for small businesses to earn that interest 
on their daily balances.
    There are many ways to measure value, and certainly 
investment dollars should be paid an expected return. But as 
mentioned previously, DDA transaction accounts are not 
investment accounts. They are working capital accounts with 
significant movement of funds to meet the needs of the 
business.
    With the other account type restrictions of Reg Q being 
lifted many years ago, savings or investment funds have had the 
ability to earn a return and that process is very mature. The 
business DDA also has a value on a return, not just on interest 
dollars earned. It helps to support the relationship to cover 
service costs and to provide credit support for that business 
in a way that is meaningful.
    Without these balances to support the relationship, 
businesses will be faced with higher service fees and increased 
borrowing costs.
    These business DDA volumes also provide the pool of fixed-
rate deposits that are so critical for the community bank 
model.
    These business DDA deposits that are competed for based on 
service and relationship support are the vital source of funds 
that community banks use to make fixed-rate loans and purchase 
fixed-rate securities. These fixed-rate loans allow small 
businesses to enter into new ventures with borrowing cost 
certainty and thus create the new jobs that are so critical to 
our communities and our national economy.
    Community banks are also the largest purchasers of local 
municipal and public entity debt issues that are so critical to 
the progress of our rural and less populated communities.
    If a community bank no longer has a stable fixed-rate 
source of deposits to use to purchase fixed-rate local bonds 
without incurring unreasonable interest rate risk, it will 
require local entities to pay a higher interest rate to attract 
purchasers, further hurting their already strained budgets.
    If the repeal of Reg Q is allowed to stand, and business 
DDA accounts succumb to the enticements of the highest bidder, 
the negative effects to community banks and small business are 
clear.
    So who will be the beneficiary? It is my opinion that the 
too-big-to-fail institutions will utilize this new tool to 
attract deposits in the future since FDIC insurance premiums 
are now calculated on total assets rather than domestic 
deposits.
    With their incentive to fund their balance sheets with 
wholesale funding now gone, paying interest on business 
checking will be an option to replace those dollars with a more 
stable source of funding.
    If this does happen, it is unlikely that those funds will 
remain in the community for local purposes and small businesses 
will find themselves on their own in times of unforeseen need.
    There is another side effect to the repeal that must be 
considered and that is the Transaction Account Guarantee 
program, or TAG, that gives unlimited FDIC coverage to non-
interest-bearing balances. The irony of the repeal of Reg Q is 
that once interest is paid on these balances, the guarantee 
reverts to the $250,000 limit, which is not adequate for many 
businesses' primary transaction account.
    With the unquestionable support of the Federal Government 
of these too-big-to-fail institutions, the community bank is at 
a significant disadvantage. I have heard many times that the 
desire is to eliminate too-big-to-fail, but actions such as the 
repeal of Reg Q play right into the vantage of those 
institutions.
    For those businesses that from time to time do have 
investable funds, there is a better way to meet their needs and 
keep the funds in the local community banks without the repeal 
of Reg Q. Amending Regulation D to increase the number of 
allowable transactions in a money market account to not more 
than 30 per month would allow those banks and businesses 
desirous of an interest paying and earning relationship to do 
so without destroying the foundation of most community banking 
franchises.
    There is still time to fix the problematic effects of this 
repeal while interest rates are at historic lows by reinstating 
Reg Q and passing Chairman Neugebauer's H.R. 2251 that 
accomplishes the amendment to Regulation D previously 
mentioned.
    I appreciate the opportunity to be here today, and I will 
be happy to answer any questions.
    [The prepared statement of Mr. McCauley can be found on 
page 24 of the appendix.]
    Chairwoman Capito. Thank you.
    Our next panelist is Mr. Alex J. Pollock, resident fellow, 
American Enterprise Institute.
    Welcome.

    STATEMENT OF ALEX J. POLLOCK, RESIDENT FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Pollock. Thank you, Madam Chairwoman, Ranking Member 
Maloney, and members of the subcommittee.
    While I am not from San Antonio, Congressman, I am from 
banking. I have lots of friends in the business from many 
decades.
    In the past, during the 1970s, when I criticized the theory 
and effects of Regulation Q to one of those friends, these 
effects being to transfer huge amounts of money from small 
savers and from small businesses to banking profits, this 
friend who was a bank lobbyist memorably told me: ``You have to 
understand, Alex, that Regulation Q is so embedded in the 
American banking system that it is permanent!''
    This was a poor prediction, of course, as it turned out, 
although it took until 2011 to be completely falsified.
    Because under Regulation Q banks were prevented by the 
government from paying interest on business demand deposits for 
so long, cumbersome methods were developed to compensate for 
this regulatory rigidity, as the chairwoman pointed out in her 
opening remarks. The Regulation Q effect on business demand 
deposits was also to encourage complex, implicit pricing 
arrangements, instead of clear, explicit pricing. This made 
things more difficult for small companies, which didn't and 
don't have internal bureaucracies.
    As a small-business witness testified to the Senate Banking 
Committee, for example: ``When I started my first business, I 
can recall vividly my astonishment at being told a business 
could not earn interest on its checking account. Later, as the 
business prospered, my banker suggested a sweep account. Boy, 
was it a paperwork nightmare.''
    This witness rightly asked why the government should force 
this complication on small business. Why indeed? It shouldn't.
    Last year's repeal of the final remaining vestige of 
Regulation Q's 1930s thinking, as the chairwoman pointed out, 
at long last completed a pro-competitive process, which began 
with the Monetary Control Act of 1980. This final repeal was 
and is a good idea. We can easily see this by asking and 
answering half a dozen simple questions to clarify the 
economics of the matter.
    If we want to have a competitive market economy, should 
Congress engage in price-fixing to benefit banks? Obviously 
not.
    Should Congress prevent depositors from getting interest 
income that banks would be willing to pay? Obviously not.
    Is it the business of Congress to try to prop up banking 
profits, for any kind of bank? Obviously not.
    Should Congress force depositors to subsidize borrowers? 
Obviously not.
    Does Congress know the right price for a business checking 
account? Obviously not. Only the competitive market can 
determine this, and it might determine multiple varieties of 
answers to that.
    Should Congress promote competition in banking to the 
benefit of customers? Obviously, yes. That could hardly be more 
clear.
    Moreover, the whole history of Regulation Q, as discussed 
in my written testimony, displays the folly of such regulatory 
schemes.
    Customers are better served by encouraging competition than 
by suppressing it. This is especially true for smaller 
customers who lack negotiating power and are price-takers in 
the market, not price-makers.
    To address quickly the specific questions asked by the 
committee:
    ``Has competition for business checking accounts 
increased?'' To some extent, but because the Federal Reserve, 
as we all know, is manipulating short-term interest rates to 
approximately zero, I wouldn't expect to see major results at 
this point. We will see more when interest rates rise, as they 
inevitably will. But since we are in a time of zero interest 
rates, it is in fact a good time to do this transition--it 
makes it easier.
    The subcommittee asks, ``Are you concerned with unintended 
consequences?'' No.
    ``Will small businesses benefit?'' Yes. Regulation Q 
certainly caused subsidies to be extracted from small business 
depositors and transferred to banking revenues. This should be 
removed.
    ``How about the Federal Reserve's statement that this will 
get greater clarity in pricing?'' I do believe that explicit 
pricing is clearer and better than implicit pricing.
    In conclusion, Madam Chairwoman, about 35 years after my 
bank lobbyist friend told me it was impossible, we have finally 
arrived to the truly post-Regulation Q world, and this is a 
good thing.
    Thank you again for the opportunity to be here.
    [The prepared statement of Mr. Pollock can be found on page 
29 of the appendix.]
    Chairwoman Capito. Thank you. I want to thank you both.
    I am going to put a general question out, and then I would 
like to hear both of your responses.
    I guess I would like an assessment, if you have an 
assessment now, of how many institutions are actually offering 
interest on demand. I think Mr. Pollock addressed the fact that 
it is probably very low because of interest rates in general.
    Mr. McCauley, you talked about the relationship between the 
repeal of Reg Q and the TAG program with the FDIC and what kind 
of relationship there is and might be because the TAG program 
is set to expire, I believe, at the end of this year.
    Do we really have a complete picture, because of the low 
interest rates and maybe the TAG program as well, what the 
landscape will really be under the repeal of Reg Q?
    So, Mr. McCauley, if you could kind of generally respond to 
those questions?
    Mr. McCauley. Sure. I think you are exactly right. Right 
now, there is very little movement because rates are at 
artificial lows and the entire banking system is awash in 
liquidity. So there is very little competition for deposits 
right now.
    We will not see the effects of the repeal of Reg Q until 
monetary policy changes the excess reserves that are in the 
system and we start seeing an increase in interest rates.
    At that point down the road is when it is going to become 
very critical and it is going to really--the effects of it are 
going to be seen within the banking community.
    The TAG program is--the irony is that it is only for non-
interest-bearing balances. And when you pay one basis point of 
interest on there, the TAG goes away.
    Chairwoman Capito. Right.
    Mr. McCauley. It was put in place to help the community 
banks compete with the too-big-to-fail institutions with the 
implicit guarantee of the Federal Government.
    Chairwoman Capito. Do you have any idea of how many 
institutions are currently choosing to pay interest on--
    Mr. McCauley. There are very few. Some of the large 
national institutions that have huge advertising budgets and 
are in need of deposits to fund credit card portfolios have 
made some moves in this regard.
    And that further, by being able to do that, they have the 
possibility of disintermediating the funds from community 
banks. In today's world of electronic banking, you can bank 
anywhere. And so once those funds to chase interest earned on 
those demand deposit balances leave the community bank, then 
they are not going to be used in that local community.
    Chairwoman Capito. Mr. Pollock, do you have a response to 
my questions? How many? And have we really seen the full effect 
and will we see it going forward in relationship to the TAG 
program?
    Mr. Pollock. As I said in my testimony, Madam Chairwoman, 
we wouldn't expect to see a big effect now. This actually is a 
good time, as I said, to do the transition, so people can get 
ready.
    As far as TAG goes, Mr. McCauley rightly said that there 
are a lot of things you are, as a customer, evaluating when 
deciding who to do any kind of business with, including banking 
business. You might like the local knowledge of a local bank. 
You might like the relationship. You are going to weigh that 
against the way it prices its deposits, the way it prices its 
credit.
    You might include the fact that if I just forego interest, 
I can get an unlimited government guarantee on my money. You 
will put that into your decision.
    What we ought to be doing always, in my opinion, in public 
policy is letting that competitive market work out those 
various tradeoffs because there is no way for anybody to sit in 
the central place and say this is how it should work. It is why 
we have a competitive market: to figure out the right answer.
    Chairwoman Capito. In terms of, you mentioned the 
electronic banking, and certainly that is the way things are 
done now, will continue to be done in such a rapid-fire manner. 
And I think that is a good thing, because it really does move 
to the ease of customer satisfaction and it creates more of a 
national or international banking scenario when you can move 
your funds around rather quickly.
    Do you think that--so you are envisioning, Mr. McCauley, a 
situation where the money is just going to be chasing the 
highest rate without the relationships that are born in a 
community bank. Is that essentially--
    Mr. McCauley. Yes, my experience in working with community 
banks for a long, long time is that the rate sensitivity of 
their customers is one of the highest things that they worry 
about. Customers will move for 5 basis points, 10 basis points, 
not really looking at the long-term ramifications of that.
    That is fine with investment dollars because you are going 
to put those into a term investment and you are going to try to 
maximize your return.
    When you start taking the transaction account so you have a 
community banker and a small business there, and they are 
enticed to move that money to the highest bidder, and say it is 
a credit card bank from out of territory that wants to fund a 
credit card portfolio, they can obviously pay a higher interest 
rate than the community banker can because of the returns on 
our credit card portfolio.
    Once those funds leave that community bank to be deployed 
by that other bank, and those deposits are made electronically, 
they come out of that community in which they were originally 
deposited, that small-business owner then loses the support.
    I hear many, many times from community bankers that this 
foundation of the relationship with the DDA is the reason that 
they stand behind their customers, because they support the 
balance sheet of the local community bank.
    Chairwoman Capito. My time has expired here so--
    Mr. McCauley. Okay.
    Chairwoman Capito. --I don't want to violate my own rules 
here.
    Mrs. Maloney is recognized for 5 minutes for questioning.
    Mrs. Maloney. Thank you. And I thank both panelists. And, 
Madam Chairwoman, thank you.
    First, I request unanimous consent to place into the record 
testimony from John Durrant, managing vice president of small 
business banking at Capital One Financial Corporation.
    Chairwoman Capito. Without objection, it is so ordered.
    Mrs. Maloney. Capital One introduced clear interest banking 
checking. And this is the first bank, as I understand it, to 
market a business checking account that will offer high 
interest checking rates for the first 12 months and a market 
competitive rate thereafter. So thank you for accepting it.
    And I would first like to respond to your testimony, Mr. 
McCauley. You characterized this action with Regulation Q as 
sort of a last minute, 11th hour action. But legislation has 
been pending, as Mr. Pollock mentioned, for many, many years. 
Since 1979, I found legislation calling for the repeal of Reg 
Q, possibly even before that.
    And several times, literally several times, it has been 
debated on the Floor of Congress and passed by a wide margin on 
the Floor of Congress. And the longer I stay here, the more I 
really respect anything that can get a majority vote on the 
Floor of Congress, much less a wide margin.
    I recall, along with many of my colleagues, having sat 
through numerous, numerous, numerous hearings, one chaired by 
your predecessor, Sue Kelly, who was Chair of this committee at 
one point, on this legislation of which she was the lead 
sponsor.
    So clearly, this is not a new, undebated issue. It was 
offered on the Floor of Congress when Dodd-Frank was being 
debated. But I just wanted to clarify that it wasn't an 11th 
hour amendment. It had passed this body numerous times, passed 
out of this committee numerous times.
    I would like to ask you about the sweeps process and if you 
could elaborate on it. As Mr. Pollock mentioned and others 
mentioned, there have been numerous attempts to try to go 
around Regulation Q prohibition since it was enacted in Glass-
Steagall, one of which is the sweeps, the automatic transfer of 
one's savings accounts to one checking accounts. And many 
financial institutions have benefited from this practice, 
offering the service to their customers and collecting fees.
    So I would like to know, has your bank taken advantage of 
these sweep activities and those like them? What are the fees 
for the sweep activities? How prevalent are they in your bank? 
Is it prevalent throughout the system?
    If you could comment on the sweeps, the automatic transfer, 
and what the fees are and exactly how it works? Is it 
automatic? Do they opt into it--exactly how it works and have 
you been benefited from this and what the fees are?
    Mr. McCauley. Sweep accounts have been around for a long 
time, as already previously stated. Sweep accounts are mainly 
available to larger corporate entities, more sophisticated 
depositors that have larger amounts to sweep. There is a cost 
to that, the fees associated with it on a daily basis. It can 
either be a hard dollar figure, or it can actually be a spread 
of a few basis points.
    Mrs. Maloney. But how much is it usually, like $100, $35? 
What is the usual average sweep fee?
    Mr. McCauley. As far as hard dollars on a monthly basis?
    Mrs. Maloney. Yes.
    Mr. McCauley. It varies from institution to institution. I 
would say it would be less than $100 per month from the 
standpoint of a hard dollar fee if you looked at an average.
    However, those sweep accounts have not been really 
available to smaller businesses, to smaller entities and to 
smaller financial institutions. That is the main concern, that 
they have never been able to do that, they didn't have the 
sophisticated systems to be able to do that, nor did they have 
the size of customers that would benefit from that.
    And that is why we suggest the amendment of Regulation D to 
allow on-balance-sheet sweeps, if you will, to keep that money 
in the community bank.
    Mrs. Maloney. Okay. My time is almost up. I would like to 
ask Mr. Pollock, the main concern that I hear from my 
constituents, the small-business owners, is that they are 
forced to dedicate time and energy to transferring funds from 
one account to another to earn interest, and they say that they 
could better use this time serving clients and helping them 
grow their businesses.
    How will this help them grow and create jobs, the number 
one concern before Congress, this elimination of Reg Q? And why 
do you think it has taken so long for this to happen, and why 
did they put it in there in the first place? I know you are a 
historian, too.
    Mr. Pollock. Thank you, Congresswoman.
    Of course, your small-business customers are right. They 
are engaging in this bureaucracy and trying to move things back 
and forth only because Congress put in this prohibition, which 
was then mirrored in the Federal Reserve's regulation. Congress 
caused this complication and expense to happen.
    If you go back to 1933, in the banking act of that year, 
you will find that among the things Congress was trying to do 
with what became Regulation Q was to prop up banking profits by 
giving banks what seemed like free--or interest-free at least--
money.
    There was a lot of cartel-like thinking in the 1930s, which 
was displayed in a lot of the New Deal regulation. The 
regulators were viewed as a sort of cartel manager, as the 
Federal Reserve was in this case, to preside over a deposit 
product cartel where we fix the prices by regulationin order to 
try to prop up baking profits. This is not a good reason, I 
think we can say.
    Mr. Renacci [presiding]. Thank you.
    I am now going to recognize myself for 5 minutes.
    First off, I want to say that I am concerned about 
community banks being able to meet the requirements of many of 
the regulations of Dodd-Frank and being able to compete. But on 
this issue, I am trying to get a handle on it, and the way I 
have spelled it out is pre-repeal, small community banks did 
not pay interest. And large banks already sidestepped the issue 
by having sweep accounts.
    Post-repeal, small community banks are not paying interest 
because interest rates are too low. And large banks are still 
sidestepping the issue by having sweep accounts.
    So in essence, I think I heard, Mr. McCauley, in your 
testimony that nothing has really changed at this point till 
liquidity gets back into market.
    But I question, even after the repeal, if pre-repeal, the 
large banks were already doing this, then post-repeal, aren't 
the small community banks really just going to be competing 
with themselves, between themselves, as the first institution 
maybe starts to put an interest on that account, and then the 
small community bank down the street has to do it?
    I realize it is a cost. I was a small-business owner for 28 
years. But I also believe in competition. So I am trying to 
just sort through that. And maybe you can tell me your thoughts 
on that.
    Mr. McCauley. Historically, community banks have competed 
with each other, but it has been based on a level playing field 
of a zero interest rate for transaction accounts. They had to 
compete on the basis of service, relationship, knowledge of the 
business, and credit support. So there is no pure form of 
competition in that. When you get into a bidding war, it is an 
auction. It is going to the highest bidder.
    As was already previously mentioned, the number one player 
so far has been Capital One, it is on the record, and they are 
doing that to fund a displaced credit portfolio that is not 
part of the local community.
    So it is not only the competition within the community--
sure, there is going to be competition between community 
banks--but now, with the outside competition coming in and 
being able to pay a much higher rate than any community bank 
could.
    The other part of it is that the downside of that is it is 
going to result in higher borrowing cost. Everybody focusing on 
just the interest earned, that is one side of it. But when you 
take a bank and you make their entire balance sheet floating 
rate as far as their liabilities--the deposits--it is going to 
be very problematic for them to make fixed-rate loans. They are 
not going to be able to do it.
    And so without those fixed-rate loans and that borrowing 
cost certainty, it is going to have a major impact on the 
small-business borrower who, many times, is also the small-
business depositor. And so, there is another side to this with 
the borrowing cost and also investment in supporting local 
communities and their bond issues. Community banks, excuse me.
    Mr. Renacci. I was going to say, ultimately, I do 
understand that and I agree. The loser in this will always be--
and it is sad to say--the consumer because as costs go up, as 
you increase your interest, you are going to have to charge a 
higher cost in the banking system to pay a loan. So I do 
understand that. That is why it is interesting to hear this.
    But ultimately, I am still trying to go back to the small 
banks versus the large banks because I think you made that 
statement earlier. Do you believe, based on the system pre-
repeal, that there is a real difference since the large banks 
are already using sweep accounts?
    Mr. McCauley. The large banks have historically used it for 
larger customers. They didn't necessarily use that with small--
it really has to do with the volume of funds that the customer 
has. A small customer in a larger bank did not utilize a sweep 
account.
    Mr. Renacci. Mr. Pollock, your thoughts on this?
    Mr. Pollock. Congressman, I am with you on competition. The 
winners from competition are consumers and customers of all 
kinds. That is always true.
    When we talk about money trying to be channeled in one 
place or another by regulation, we typically end up with 
inefficiencies and consumers losing. If the people in small 
towns, let us say, choose to put their money in a demand 
deposit with a credit card bank, at the same time those people 
are using the credit cards of that bank and spending the money 
in the local stores.
    If we sit back, as I said before, from the center and try 
to say, we are going to design a set of rules to make all these 
flows work out the way we want, we will make them work much 
worse than a competitive market will.
    Mr. Renacci. Thank you. I am running out of time. So I will 
recognize Mr. Hinojosa for 5 minutes.
    Mr. Hinojosa. Thank you, Congressman Renacci.
    I want to acknowledge Chairwoman Capito and Ranking Member 
Carolyn Maloney. I commend them for holding today's 
congressional hearing on the effects of Regulation Q.
    I believe the repeal of Regulation Q has the potential to 
have a damaging effect on our community banks, which in turn 
may hurt the small businesses, some of our local school 
districts, and other entities that overwhelmingly rely on 
community banks for small-business loans.
    I appreciate the concerns of my colleagues that Regulation 
Q represents an intrusion into the banking practices. I would 
counter, however, that we also should listen to the small banks 
that fear the effects of this repeal.
    They are the banks serving rural America and other 
underserved areas which larger banks deem unprofitable. They 
are the banks making the loans to small businesses. They are 
the banks with relationships forged in those communities.
    I would ask my colleagues on both sides of the aisle to 
listen to and consider the concerns expressed today.
    My question for Mr. McCauley is, in my district in deep 
south Texas, community banks and credit unions are very 
important to the small businesses and to the families who have 
taken advantage of the low fixed mortgage rates that community 
banks are able to provide. Variable-rate mortgages were one 
component of the subprime crisis and encouraging fixed-rate 
mortgages, especially in underserved areas, as I mentioned.
    It is important to protect the future health of the housing 
market. I would like to hear your prediction, sir, for how the 
repeal of Reg Q will affect the ability of community banks to 
provide fixed-rate loans to home buyers, and also tell me how 
this might affect the operations of community banks in those 
underserved areas in general.
    Mr. McCauley. Thank you, Congressman.
    Yes, I am very familiar with your district and the 
community banks. I work with very many of them in your 
district.
    Mr. Hinojosa. We are pleased to have your chain of banks in 
deep south Texas. You all do a wonderful job.
    Mr. McCauley. Great. Thank you.
    The fixed rate at zero deposit base that community banks 
have, statistics will show that it is about 20 to 25 percent, 
and most community banks have a non-interest-bearing deposit 
base of about 20, 25 percent. They have historically used this 
to make those fixed-rate loans, many of those to home buyers in 
those rural areas where no mortgage company is going to make 
that loan. And you are very aware of that. It is very 
problematic.
    Without community banks making those fixed-rate home loans 
to those borrowers, it would be very difficult for them to get 
a mortgage and thus to purchase a home.
    With the inability to have with certainty, rate certainty, 
to know that you have this base of fixed-rate deposits at zero 
to margin off of or make a reasonable spread on and make those 
mortgage loans, the banks won't be able to do it.
    They could utilize higher cost Federal Home Loan Bank 
borrowings to match fund off of that, but it will be a higher 
cost to the borrower because those funds do have a cost to them 
versus the base of DDA deposits that they have always had.
    So it is not only just the fixed-rate loans that they are 
able to make to the businesses, but also every community bank 
that I know does support their local community by making these 
mortgage loans and they are able to use fixed-rate funding 
because of that deposit base that they have with certainty.
    And without that, the cost of borrowing will go up or they 
will go to variable rate mortgages which can be quite 
problematic in a rising rate environment.
    And I think it is where we are right now. You are going 
to--the downside to community banking is, is to put them in a 
liability-sensitive position with rising rates and the deposit 
side of their balance sheet increasing in rate.
    If they do have fixed-rate loans on the books, it is going 
to put them into a negative spread reminiscent of the S&L 
crisis. So they are going to be very cautious about making 
those.
    Mr. Hinojosa. In your opening remarks, you said that it 
would be some time--and I don't know exactly how long--before 
we really see what financial effect it would have on our 
community banks. Give me a timeline in your opinion of how long 
that would be?
    Mr. McCauley. That is anybody's guess. The Federal Reserve 
has put out that they are proposing to hold rates near zero 
through 2014. But we know if inflation does return or 
unemployment does reduce at a rate, that the Federal Reserve 
will have to start moving to control those, and it could move 
some predictions, the rates will move up very fast to control.
    When that will be, I don't know. But if you look at just 
when you return rates to anywhere, the Fed funds rate and a 
normal rate between 3 and 5 percent, which is very normal over 
time, it will be devastating as far as the marginability of the 
banks, not from a profit standpoint, but being able to provide 
those loans at a fixed cost to the borrower, fixed-rate loans 
whether it be mortgage or a small business.
    Mr. Hinojosa. Thank you. My time has expired. I yield back.
    Mr. Renacci. Thank you.
    Before I recognize Mr. Luetkemeyer, I would like to ask 
unanimous consent to insert 2 items into the record: a 
statement from the Independent Community Bankers of America; 
and the Hamilton Financial Index.
    With that, I recognize Mr. Luetkemeyer for 5 minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    I would just like to start out with a quick story. In our 
local bank, the local officer, loan officer one day was 
confronted by an elderly gentleman who had a large deposit, a 
lot of money in the bank, and he wanted to ask him for a higher 
interest rate on his deposits because he thought he had enough 
money in there that he deserved more interest on his deposits.
    And so the loan officer said, ``I would love to give that 
to you, John, but your son, Robert has a loan with us on his 
car, a loan with us on his house, and a loan with us on his 
farm. And if you take the money out, we are not going to be 
able to loan him that money, number one. And number two, if we 
pay you more, we have to charge him more. Now, what do you want 
us to do?''
    And that, to me, is what is going on here, is that while 
Reg Q was there initially for a stated purpose, of which I am 
not sure--I would like to have a discussion with Mr. Pollock in 
1 minute here about profits on it, but at some point the 
dollars that we are using to make loans to small businesses and 
individuals come from the deposits of the community generally.
    And the rates that are charged on those loans are 
reflective of what deposits are being paid so that there is a 
margin there. And if you pay more for deposits, you are going 
to charge more for the other services. That is the way it 
works. You have to maintain a margin on your interest rates as 
well as a profit margin to be able to keep your doors open.
    So I am not sure exactly why they think this is a good deal 
because I think we are taking from one group and giving to 
another. We are picking winners and losers here over who has 
checking balances with us and who has loans with us. And I am 
not sure we need to be in the middle of doing that.
    And so I guess a quick question for you, Mr. McCauley, is 
what percentage of your business deposits or what percentage of 
your deposits or business deposits versus personal deposits 
that you have in your bank?
    Mr. McCauley. Within our organization, we are primarily a 
commercial bank and so it would be predominantly commercial 
deposits versus retail.
    Mr. Luetkemeyer. Okay. Does your loan portfolio reflect the 
same amount of commercial loans versus personal loans then as 
well?
    Mr. McCauley. Absolutely.
    Mr. Luetkemeyer. So you have tied them together pretty 
well?
    Mr. McCauley. Absolutely. And I think almost every banking 
franchise does.
    Mr. Luetkemeyer. Right. So as a result, if you pay more for 
the deposits for your commercial deposits--or pay more for your 
commercial deposit--you are going to have to charge more for 
your commercial loans. Is that not right? It is pretty 
reflective.
    Mr. McCauley. Right. It is a simple yes.
    Mr. Luetkemeyer. Okay. With regard to the transactional 
account guarantee, how impactful do you think it will be if we 
allow this thing to expire, to your bank in particular?
    Mr. McCauley. I think it would be devastating to the 
community bank market. The implicit guarantee of too-big-to-
fail has not been eliminated. And if you have any depositor who 
has any concerns, it is easy for the too-big-to-fail bank to 
say simply you don't have to worry about insurance limits with 
us because we know the government is not going to let us fail.
    It will be devastating. It has leveled the playing field. 
We would like to say it is a level playing field, but we know 
it is not, and that the sovereign support credit given to the 
too-big-to-fail banks is very real. And customers are very, 
very educated about that.
    So, deposits will flow out of the community bank market to 
those too-big-to-fail institutions in excess of the $250,000 
limit when and if it is allowed to expire.
    Mr. Luetkemeyer. So as a result of that, do you feel that 
the dollars that are generated in a local community, that the 
local businesses are making, and then they would take those 
dollars out, and you would have less money to loan back to 
create more businesses and help more local folks?
    Mr. McCauley. Absolutely. Most businesses require more than 
$250,000 to maintain the transaction of their business.
    Mr. Luetkemeyer. Mr. Pollock, would you agree with that?
    Mr. Pollock. I am not sure what ``that'' is, Congressman. I 
am sorry.
    Mr. Luetkemeyer. Mr. McCauley and I were discussing the 
transaction account guarantee and that if it expires at the end 
of the year, it is going to have a significant effect on 
especially small institutions as a result of the fact that the 
too-big-to-fail guys are able to point to that fact and the 
deposits will sort of gravitate that way. Do you feel that is 
accurate?
    Mr. Pollock. Thank you, Congressman.
    I do think there is in depositor behavior a looking to the 
bigger banks as safer. With respect to TAG, I do think there is 
an argument that if you are going to have the government 
guarantee the liabilities of banks, that such a deposit 
insurance system might have an unlimited amount for demand 
deposits, as opposed to investment accounts, as Mr. McCauley 
says. There is a reasonable argument to that. It all ought to 
be priced fairly.
    Mr. Luetkemeyer. Are we not--do the banks pay insurance on 
these accounts?
    Mr. Pollock. Absolutely.
    Mr. Luetkemeyer. So in other words, the larger accounts are 
already insured by the FDIC?
    Mr. Pollock. Yes.
    Mr. Luetkemeyer. And you are paying insurance on that?
    Mr. Pollock. Yes, this is a totally bank-funded--
    Mr. Luetkemeyer. Okay.
    Mr. Pollock. --insurance program.
    And it should be, and that insurance premium, Congressman, 
needs to be a fair price. The government learns over and over 
that underpricing government guarantees of private liabilities 
is a big mistake, including in deposit insurance. We have 
learned that lesson.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    Mr. Renacci. Thank you.
    We have votes in about 10 minutes, so if the Members would 
be amenable, what I will try and do is, we have two Members 
left. We will get the two Members in, and then close the 
hearing.
    So I recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you very much.
    Mr. McCauley, Mr. Pollock, let me ask you, for those banks 
that are adjusting to this repeal of Reg Q, what would each of 
you recommend that they do to ensure that access to capital 
does not diminish while at the same time making sure that their 
operations are sound and stable?
    Mr. Pollock. Is that to me, Congressman?
    Mr. Scott. Yes, to each of you. I would like to get both of 
your responses. What are the recommendations to those that are 
adjusting so that they can stay viable?
    Mr. Pollock. Congressman, that is, in my view, a variation 
on asking about the relationship of depositors and lenders. As 
I said in my testimony, we should not be trying to force 
depositors to subsidize borrowers. That is a mistake. We 
shouldn't force borrowers to subsidize depositors. That is why 
we want competitive markets, to establish prices among all of 
the actors in the markets.
    I don't think we ought to be about, as a matter of public 
policy, guaranteeing that any particular competitor has funds 
at any particular price. I don't think trying to fix the price 
of funding or of any product in any business by the government 
is a good idea. That takes away the amazing power of 
competitive markets, which is what we ought to want to have in 
banking, as well as everyplace else.
    Mr. Scott. Okay. Yes, sir?
    Mr. McCauley. How does a bank respond? How do they stay 
viable? What could they do to prepare? That is going to really 
depend upon market forces. There is very little that a 
community bank can do if interest rates rise and there is a 
huge increase in the price of those deposits. They are going to 
have to be very reactionary. The market forces will drive that.
    I will say that the clarity issue question of the Fed and 
their comment that it will bring clarity as far as implicit 
interest versus explicit, that it is our understanding and 
learning from peer discussions and other software vendors and 
developers of systems that it is not going to get more simple. 
It is actually going to get more complex.
    Mr. Scott. Do you think that this repeal will cause a sharp 
decline in the profitability of banks? I represent a State that 
has gone through just a tremendous onslaught of bank closings 
and failures of banks. So I am very, very concerned about what 
we do up here to make sure we are not hurting these banks.
    Do you think the repeal of Reg Q will cause a sharp decline 
in the profitability of banks?
    Mr. McCauley. In a rising rate environment for a bank that 
has a high percentage of their deposits and non-interest-
bearing DDA that become interest-bearing, their interest 
expense is going to go up very rapidly. And thus, yes, they are 
going to have to raise the cost of loans to maintain the same 
profitability. And if they can't do that, profitability will be 
diminished.
    Mr. Scott. Do you think they should raise the cost of loans 
so that they can generate sufficient revenue to cover the 
increased cost of paying interest?
    Mr. McCauley. Absolutely.
    Mr. Scott. All right.
    Let me ask you, do you think, do you anticipate the banks, 
particularly small community banks, will lose deposits due to 
the increased competition of interest rates?
    Mr. McCauley. I believe that they will. I believe there 
will be a disintermediation to the larger institutions such as 
Capital One that has been previously mentioned that has obvious 
huge advertising budgets, and also an incentive to pay up for 
deposits to fund a very high price as far as interest rate 
credit card portfolio.
    For instance, they can pay a high interest rate for 
deposits because of the high interest rates on a credit card 
portfolio versus a community bank that is making loans within 
the community.
    Mr. Scott. Is there anything that could be done by the 
banks, by us, or by anyone to mitigate this damage?
    Mr. Pollock, I think you wanted to--
    Mr. Pollock. I would. Thank you, Congressman.
    I think what is not to be done is to have the Congress, as 
I said in my testimony, try to support the profitability of 
banks or of any business. If they are losing business, it is 
because they are not competitive. We have to let customers, 
consumers, small businesses, all businesses decide what is the 
most valuable package of price, service, relationship, and 
quality among the various competing banks.
    A big mistake, in my judgment, is for the Congress to say, 
we are going to pick one kind of competitor and try to make 
sure they are profitable.
    Mr. Scott. I will yield back so we can have enough time. My 
time has expired.
    Mr. Renacci. Mr. Green, I know that you just stepped back 
in. We are going to go 5 and 5, but with you coming back, if 
you would like more than 1 minute, we will have to recess today 
or now and then come back after votes.
    Mr. Green. Mr. Chairman, I am honored to take whatever is 
available.
    [laughter]
    Mr. Renacci. Mr. Canseco for 5 minutes.
    Mr. Canseco. Thank you, Mr. Chairman. I appreciate the 
opportunity to ask these questions.
    Mr. Pollock, you bring some very interesting points in your 
testimony regarding Reg Q's history and negative consequences 
that the policy has led to in the past, such as deposits 
leaving savings and loans in the 1960s when Reg Q was intended 
to keep them there.
    We can all agree that there are good regulations and bad 
regulations. But in your opinion, why specifically is a 
prohibition on paying interest a bad regulation? And how can it 
further lead to negative consequences?
    Mr. Pollock. Congressman, in my judgment, among the worst 
kind of regulations are price regulations where the government 
tries to fix the price of any product or service. That is all 
that Reg Q was and would be if we had it back. It is a price-
fixing regulation, which is a bad idea and always turns into 
creating distortions which are unfortunate over time.
    Mr. Canseco. Thank you for that.
    But, Mr. Pollock, do you think that a prohibition on 
interest on demand deposit accounts is price fixing?
    Mr. Pollock. Absolutely, I do, sir.
    Mr. Canseco. And Mr. McCauley?
    Mr. McCauley. No, it is absolutely put in place for a 
purpose. And I think that you look at the past 70 years of it 
being in place, how it has really helped support the community 
banking industry. It unequivocally leads to the ability to make 
those fixed-rate loans and purchase those fixed-rate securities 
to support those communities.
    Mr. Canseco. Let me ask you specifically, could you, Mr. 
McCauley, explain how community banks specifically would become 
more liability-sensitive in the wake of Reg Q's repeal?
    Mr. McCauley. Sure. The liabilities of a bank are their 
deposits, what they owe back to their customers. And if your 
sensitivity is really related to rates moving one way or the 
other, if you are liability-sensitive, that means that as 
interest rates rise, your costs are going to go up; or as 
interest rates lower, your costs are going to go down as far as 
your deposit cost. There is nowhere for rates to go but up from 
where we are right now.
    It puts community banks in an incredibly difficult 
position. It can be purported that it is a great time to do it. 
I think it is a terrible time to do it because you put 
community banks in a very intensely liability-sensitive 
position that they have never had to deal with on asset-
liability management. So their interest rate risk volatility 
becomes extreme.
    Mr. Canseco. You mentioned in your testimony that demand 
deposits require a 10 percent reserve requirement at the 
Federal Reserve. Could you explain how that would hurt lending, 
especially by community banks, to the local areas that they 
serve?
    Mr. McCauley. Transaction accounts require a 10 percent 
reserve at the Federal Reserve. Today, those monies that are in 
money market accounts or other non-transaction investment 
accounts do not have a reserve requirement.
    With the repeal of Reg Q, interest rates paid on demand 
deposit accounts that are transaction accounts to attract 
funding into that, those funds that did not have a reserve 
requirement will now have, which will take 10 percent of all of 
those deposits out of the system to be loaned and to support 
the local communities.
    Mr. Canseco. So let us assume I am a small businessman who 
has a working relationship with a community bank and I keep my 
checking accounts there. What side should I be on here? Should 
I be in favor of Reg Q or against Reg Q?
    Mr. McCauley. I think you should be in favor of Reg Q with 
the amendment of Reg D because we have a solution. There is a 
better way than repealing Reg Q. It is to reinstate Reg Q and 
amend Reg D. That way we can keep those funds on a balance 
sheet of a community bank without the machinations of a sweep 
or the expense of a sweep account.
    Mr. Canseco. Mr. Luetkemeyer pointed out something very 
interesting, that if I am getting interest payments on my 
demand deposit account, it is also going to affect the loan 
rate that I am going to get on any loan that I have, whether it 
is a car loan or a business loan. Is that correct?
    Mr. McCauley. That is correct. There is a direct 
relationship.
    Mr. Canseco. Let me pursue some of that. I have 40 seconds 
left. But you touched upon something that I need to have 
elaborated here.
    I know from being in business in Texas and banking in 
Texas, many of our community banks go out there and bid on 
government accounts to attract those deposits in there. It is 
certainly not a lending relationship; it is a depository 
relationship with schools, city, county, etc.
    Tell me how that would affect you one way or the other with 
or without Reg Q.
    Mr. McCauley. Most community banks do this as an 
accommodation to their local municipal governments to support 
them on their accounts. They have investment accounts they pay 
an interest on. If they are now going to get in a competitive 
environment and pay an interest rate on the demand accounts, it 
is going to further deteriorate their ability to do that, 
because it is not a profitable account for them.
    Mr. Canseco. And one more question, if I may. So therefore, 
it is going to affect those consumers other than governmental 
depositors when they ask for loans from the institution.
    Mr. McCauley. Absolutely, the cost will be higher.
    Mr. Canseco. Thank you.
    Mr. Renacci. Thank you.
    Mr. Green for 1 minute.
    Mr. Green. Thank you, Mr. Chairman.
    Let me speak quickly. Let me thank you, Mr. McCauley, for 
being here today. I claim a little bit of you in Houston, 
Texas. And community banks are especially important to us in 
the State of Texas, to have banks with the owner in the 
community. They know the people in the community. It means 
something to have community banks.
    With reference to competition, I support competition, but 
there are some concerns that I will have to raise. When the big 
box stores come in, they drive out the mom-and-pops. Community 
banks are the equivalent of mom-and-pops. If we don't do 
something, we have to protect them to make sure that we have 
what we know to be a viable institution that helps communities.
    I would add only this as I close. With these community 
banks, we have an opportunity to make sure that small 
businesses can work with small banks so that they can continue 
to thrive. I will do what I can to be helpful. I have some 
thoughts, and perhaps I will get a chance to share them at a 
later time.
    Thank you very much, Mr. Chairman.
    Mr. Renacci. Thank you, Mr. Green.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for Members to submit written questions to these 
witnesses and to place their responses in the record.
    This hearing is adjourned.
    [Whereupon, at 10:32 a.m., the hearing was adjourned.]



                            A P P E N D I X



                             March 1, 2012

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
